No. 19-1049
INTHE

~uprente Qtourt of tlJe Wntteb ~tate~
BOLIVARIAN REPUBLIC OF VENEZUELA AND
PETROLEOS DE VENEZUELA, S.A.,

Petitioners,
v.

CRYSTALLEX INTERNATIONAL CORPORATION,

Respondent.

CERTIFICATE OF SERVICE
I hereby certiiY that I am a member in good standing of the bar of this Court and

that on this 13th day of April, 2020, I caused three copies of the Brief in Opposition to
be served by third-party commercial carrier on the counsel identified below, and caused
an electronic version to be transmitted to the counsel identified below, pursuant to Rule
29.5 of the Rules of this Court. All parties required to be served have been served.
Donald B. Verrilli, Jr.
MUNGER, TOLLES & OLSON LLP
1155 F Streeet, N.W.
7th Floor
Washington, D.C. 20004
(202) 220-1101
donald.verrilli@mto.com
Counsel for Petitioners

~A~
Matthew S. Rozen

